    REVIEW OF CONSISTENCY
    IN IMPLEMENTING POLICY
  ACROSS ACQUISITION CENTERS
REPORT NUMBER A070118/Q/A/P09007

        September 30, 2009
                REVIEW OF CONSISTENCY IN IMPLEMENTING
                  POLICY ACROSS ACQUISITION CENTERS
                   REPORT NUMBER A070118/Q/A/P09007

                           TABLE OF CONTENTS


                                                                     Page
EXECUTIVE SUMMARY

 Purpose                                                               1

 Background                                                            1

 Results in Brief                                                      1

 Recommendations                                                       2

 Management Comments                                                   2

INTRODUCTION

 Background                                                            3

 Objectives, Scope and Methodology                                     5

RESULTS OF REVIEW

 Brief                                                                 7

 Procurement Policy and Related Guidance – Pricing                     7

   Support for MFC Pricing is Inconsistent                             8

   Exclusion of Relevant Cost Analyses                                11

   A Flawed Tool was used to Determine Fair and Reasonable Pricing    13

   Commercial Price Lists Improperly Contain Embedded
   Wage Rate Escalations                                              16

   Inconsistent Escalation Practices                                  17




                                       i
 Internal Controls                                                     19

   Prenegotiation Clearance Panel (PNCP) benefits not fully realized   20

   Contractor Posted an Unapproved CPL to GSA Advantage                21

 Procurement and Operational Business Practices                        22

   Volume Discounts Improve the Government’s Purchasing Power          22

   Alternative Pricing Resources                                       23

   Communication Techniques Enhance Policy Dissemination               23

   Tools and Controls that Promote Efficiency                          25

 Conclusion                                                            26

 Recommendations                                                       28

 Management Comments                                                   29

 Internal Controls                                                     32

APPENDICES

 Schedules by Center with Fiscal Year 2007 Sales                       A-1

 EPA Clause GSAM 552.216-70                                            B-1

 EPA Clause I-FSS-969                                                  C-1

 Price Reduction Clause GSAM 552.238-75                                D-1

 Management Comments to the Draft Report                               E-1

 OIG Response to Management Comments                                   F-1

 Report Distribution                                                   G-1




                                      ii
                   REVIEW OF CONSISTENCY IN IMPLEMENTING
                     POLICY ACROSS ACQUISITION CENTERS
                      REPORT NUMBER A070118/Q/A/P09007

                              EXECUTIVE SUMMARY

Purpose

The objectives of this review were to determine if policy and related guidance for the
Multiple Award Schedule (MAS) Program are being implemented effectively by the
Acquisition Centers (Centers), and to identify best practices in use by the Centers.
We narrowed the focus of these objectives to the area of pricing, including rate
escalation and price adjustment.


Background

The MAS Program is one of the General Services Administration’s (GSA) largest
procurement programs with over 17,000 contracts and roughly $36 billion in annual
sales in Fiscal Year (FY) 2007, the primary period of the contracts we reviewed.
Since its inception, the MAS Program has experienced significant growth, with much
of its recent growth and revenue in the area of services. The Office of Acquisition
Management within the Federal Acquisition Service (FAS) is responsible for issuing
the national operating and negotiating procedures and policy guidance for all of the
Centers. GSA’s Office of Chief Acquisition Officer (OCAO) also issues national
procurement guidance. Additionally, there is schedule, Center, and portfolio specific
guidance available for acquisition personnel. Subsequent to our fieldwork, FAS
announced the creation of the MAS Program Office with responsibilities that include
developing and implementing MAS acquisition policy and guidance. Further, the
OCAO is currently leading a rewrite of the General Services Acquisition Manual as
the MAS program continues to evolve.


Results in Brief

Our review found opportunities for the Centers to improve the consistency of
implementing procurement policy and related guidance when making determinations
of fair and reasonable pricing and when conducting negotiations. We identified
controls at both the national and Center level designed to ensure the implementation
of procurement policy and guidance; however, we found instances when these
controls were not applied. We noted that the Centers are using a variety of
procurement and operational business practices. Some of these practices appear
transferable and could be considered best practices.




                                          1
Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:

   1. Develop and implement policy and training for acquisition personnel including:
        a. MFC pricing determination that employs methodologies commensurate
            with the value and risk of the acquisition.
        b. Use of cost analysis, including a clear definition of cost or pricing data
            in relation to information requested on the Commercial Sales Practices
            form and for Office of Inspector General pre-award audits.
        c. Proper use of GSAM 552.216-70 as the Economic Price Adjustment
            clause when Commercial Price Lists contain more than base year
            rates.
        d. Schedule specific guidance to assist in determining wage rate
            escalation, including when escalation is appropriate, specific index
            selection, time periods for consideration, and application timeframe.
        e. Consideration of volume discounts during negotiation when offerors’
            practices include these discounts for their commercial customers, so
            as to maximize the government’s purchasing power.

   2. Assess the viability of developing or establishing resources at the national
      level to support COs in all the Centers by providing cost/price analyses and
      support, particularly in the area of professional services.

   3. Fully implement FSS Acquisition Letter FX-03-1, updated through
      Supplement No. 3, dated February 18, 2005, ensuring these responsibilities
      are all clearly defined within the FAS organization. Additionally, consider
      performing an assessment as to whether control functions of the legacy
      Federal Supply Service (FSS) and Federal Technology Service (FTS)
      organizations have been adequately transitioned to the new FAS organization
      to enhance organizational performance and accountability.

   4. Develop and implement controls to ensure the accuracy of contract
      information published on GSA Advantage such as approved Special Item
      Numbers (SINs), authorized pricing, etc. Determine if potential overcharges
      discussed in finding occurred and if so, institute actions to recover funds.


Management Comments

Management partially agreed with the findings and recommendations. Management
Comments are included in their entirety as Appendix E to this report.




                                         2
                                     REVIEW OF CONSISTENCY IN IMPLEMENTING
                                       POLICY ACROSS ACQUISITION CENTERS
                                        REPORT NUMBER A070118/Q/A/P09007

                                                               INTRODUCTION

Background

The Multiple Award Schedule (MAS) Program is one of the General Services
Administration’s (GSA) largest procurement programs with over 17,000 contracts
and roughly $36 billion in annual sales in Fiscal Year (FY) 2007. Under the MAS
Program, GSA’s Federal Acquisition Service (FAS) establishes long-term
government-wide contracts with contractors to provide Federal agencies - as well as
other authorized users 1 - access to over 11 million commercial supplies and
services. This access provides users with a simplified procurement process to issue
task and delivery orders against the MAS contracts for direct delivery of commercial
supplies and services with the assurance that prices are fair and reasonable.

Since its inception, the MAS Program has experienced significant growth. In FY
1992 schedule sales were $4.2 billion 2 . By FY 2007, this amount had grown to
$35.9 billion. As shown in Figure 1, much of the recent growth has occurred in the
professional services arena, with $23 billion of FY 2007 revenue generated by
acquisition of professional services from MAS contracts. Considering the volume of
schedule sales, even minor changes in pricing can have a large impact.




GSA’s MAS Program is operated by nine Acquisition Centers (Centers) that award
and administer contracts under 38 schedules. FAS organized these Centers under
the portfolios as shown in Table 1 below.

                                                            
1
 State and local governments may also utilize several of the MAS program contracts.
2
 GAO/GGD-93-123, Multiple Award Schedule Contracting, Changes Needed in Negotiation Objectives and Data
Requirements.


                                                                    3
    Table 1: Acquisition Centers by Portfolio 3
        OFFICE OF GENERAL              OFFICE OF INTEGRATED                            OFFICE OF TRAVEL,
      SUPPLIES AND SERVICES            TECHNOLOGY SERVICES                           MOTOR VEHICLE AND
                  (QS)                             (QT)                              CARD SERVICES (QM)
                                     Center for IT Schedule Program                Office of Travel and
    Administrative Services & Office
                                     (QTADC)                                       Transportation Services
    Supplies (2QSAA)
                                                                                   (QMC)
    Center for Services Acquisition
    (QSAB)
    Integrated Workplace Acquisition
    Center (3QSA)
    Center for Facilities Maintenance
                                                                                   GSA Automotive (QMAA)
    and Hardware (6QSA)
    Greater Southwest Acquisition
    Center (7QSA)
    Management Services Center
    (AQSA)



The FAS Office of Acquisition Management is responsible for issuing the national
operating and negotiating procedures and policy guidance for all of the Centers.
GSA’s Office of Chief Acquisition Officer (OCAO) also issues national procurement
guidance. Additionally, there is schedule, Center, and portfolio specific guidance
available for acquisition personnel.

The MAS Program is comprised of schedules that only allow fixed prices, which can
involve a higher degree of risk over the contract. To mitigate this risk, the MAS
Economic Price Adjustment (EPA) clause and the Price Reduction (PR) clause
serve to protect the government’s and contractors’ interests over the period of the
MAS contracts. The EPA clause allows contractors to increase prices under
controlled circumstances. The PR clause preserves favorable pricing relationships
by allowing the government to claim a price reduction when a similar reduction
occurs to the basis of award customer 4 . Most-favored customer (MFC) pricing
ensures that MAS contract pricing harnesses the Federal government’s collective
buying power for pricing purposes 5 .

As the MAS Program has grown, the Office of Inspector General (OIG) Assessment
of GSA’s Major Management Challenges section of the Agency’s Annual
Performance and Accountability Reports has regularly emphasized the importance
                                                            
3
    See Appendix A for a breakdown of schedules by center with associated FY 2007 sales.
4
     Before the award of a contract, the contracting officer and the offerer agree upon the customer (or category of
customers) that will form the “basis of award” for the contract, as well as the government’s price or discount
relationship to them. This relationship must be maintained throughout the contract period.    
5
  For MAS, General Services Acquisition Regulation 538.270 requires targeting those customers that receive the
offeror's best pricing; this policy is often referred to as the MFC policy. Market research has shown that large
commercial firms also use MFC pricing strategies.


                                                               4
of sustaining MAS Program fundamentals. These fundamentals - which include
pricing objectives, the mandate to seek the offeror’s best price (MFC pricing), and
conducting meaningful price analysis when awarding or extending contracts - are
key to satisfying statutory requirements for MAS Program operation 6 .


Objectives, Scope and Methodology

Our objectives were to answer the following questions:

     1. Are policy and related guidance being implemented by the Acquisition
        Centers?
     2. Are there controls to ensure implementation and adherence to policy and
        related guidance?
     3. Are there best practices in use by the Acquisition Centers? If so, is their use
        transferable?

To accomplish our objectives, we performed the following steps:

       •      Reviewed relevant reports from the Government Accountability Office (GAO),
              GSA’s Office of Inspector General (OIG), GSA’s Office of Chief Acquisition
              Officer (OCAO), and The Acquisition Advisory Panel to the Office of Federal
              Procurement Policy (OFPP).
       •      Identified and reviewed relevant national policy and guidance including the
              Federal Acquisition Regulation (FAR), General Services Administration
              Acquisition Manual (GSAM), Procurement Information Bulletins (PIB),
              Procurement Information Notices (PIN), and Acquisition Letters.
       •      Reviewed automated systems used both nationally and Center specifically
              related to pricing and policy monitoring.
       •      Conducted site visits to the following Acquisition Centers:
                  o Administrative Services and Office Supplies (2QSAA)
                  o Center for IT Schedule Program (QTACC)
                  o Integrated Workplace Acquisition Center (3QSA)
                  o Center for Facilities Maintenance and Hardware (6QSA)
                  o Greater Southwest Acquisition Center (7QSA)
                  o Management Services Center (AQSA)
       •      Identified and reviewed relevant Center specific policy, guidance, controls,
              and business practices.
       •      Interviewed and held discussions with cognizant FAS and OCAO personnel
              regarding policy, guidance, and controls.
       •      Selected and reviewed a risk-based, judgmental sample of 29 contracting
              actions, 24 of which contained price analyses that occurred from October
              2006 through June 2007. These contracting actions included both services

                                                            
6
  The Competition in Contracting Act of 1984 (CICA) requires that MAS contracts and orders result in the lowest
overall cost alternative to the government. 


                                                               5
       and products. Among the factors considered when assessing risk included
       contract and schedule sales volume, recently transferred schedules, and
       rapid growth.
   •   Performed limited follow up testing of a sample of contracting actions
       involving services in January 2009.

Our review was primarily concerned with consistency in implementing national
procurement policy and guidance across the Centers. After consulting with the
Center Directors, we narrowed our scope to the area of pricing, including, but not
limited to, rate escalation and economic price adjustment. To focus our assessment
on policy implementation within the newly formed FAS organization, we scoped our
sample to include only contract awards and contract extensions negotiated after the
new FAS organization was operational.

We conducted our review from February 2007 through April 2008, with limited follow
up testing in January of 2009, in accordance with generally accepted government
auditing standards.




                                        6
                                     REVIEW OF CONSISTENCY IN IMPLEMENTING
                                       POLICY ACROSS ACQUISITION CENTERS
                                        REPORT NUMBER A070118/Q/A/P09007

                                                               RESULTS OF REVIEW

Brief
 
Our review found opportunities for the Centers to improve the consistency of
implementing procurement policy 7 and related guidance when making
determinations of fair and reasonable pricing and when conducting negotiations.
Additionally, while the contract file documentation that we reviewed consistently
indicated that MFC pricing was targeted for negotiations per regulation, adequate
support for this assertion was not always available. Differing policy interpretations,
increased demands on acquisition personnel, and the need for improved
communication and oversight contributed to instances when the government did not
have assurance of price reasonableness 8 .

We identified controls at both the national and Center level designed to ensure the
implementation of procurement policy and guidance. However, we found some
instances when these controls were not applied. A lack of clearly defined
responsibilities within the new FAS organization appears to have effectively
neutralized national oversight control and may also have impacted sharing best
practices between the Centers. While Center controls were in place and used, we
found cases where they did not accomplish their intended purpose, resulting in
potential harm to the government.

We also noted the Centers have some business processes that could be considered
best practices. We have included these best practices in the final section of this
report for consideration.


Procurement Policy and Related Guidance – Pricing
 
The FAR mandates that contracting officers (COs) 9 determine price reasonableness
when acquiring commercial items. As a key step in this determination, the General
Services Administration Acquisition Regulations (GSAR), embedded in the GSAM,
require the targeting of MFC pricing for negotiations. Prenegotiation Memoranda in

                                                            
7
  While the acquisition personnel we interviewed accepted the FAR, GSAM, and Acquisition Letters (ALs) as
regulation that have the force of law and require compliance, they commonly referred to these regulations as
policy, a practice we will follow in this report. We noted that these same personnel offered differing
interpretations of the necessity to apply guidance provided by Procurement Information Bulletins (PIBs) and
Procurement Information Notices (PINs). The most restrictive of these interpretations was that the use of PIBs
and PINS was always mandatory; the least restrictive was that their use was completely at the option of the
contracting officer.
8
  This report will use the terms fair and reasonable and price reasonableness interchangeably.
9
  For the purposes of this report, we refer to all acquisition personnel as contracting officers (COs).


                                                                       7
contract files reviewed consistently indicated that MFC pricing was targeted for
negotiations as mandated; however, adequate support for MFC prices was not
always available, and we found contracts with the MFC not properly identified.

Another determination requirement is analysis of the offeror’s proposal, with listed
methods in the FAR including price analysis and cost analysis. The acquisition
personnel we interviewed generally indicated their preference for price analysis.
Some acquisition personnel informed us that they are not allowed to use cost
analysis when considering offers under the MAS Program, an interpretation we do
not agree with. While we understand the emphasis on price considerations when
dealing with commercial items, we hold that the FAR considers price analysis and
cost analysis as tools that are not mutually exclusive, but complimentary and to be
used as the individual award necessitates.

To facilitate price analysis and negotiations, one Center has implemented the use of
a pricing tool. Acquisition personnel have used this pricing tool to make the FAR
required determinations of price reasonableness. Although the personnel who relied
on this tool may have believed that it provided an adequate basis to make a rapid
determination of price reasonableness, we identified flaws in this tool that
demonstrate it is not valid.

We noted wage rate escalation embedded in commercial price lists for professional
services but did not find negotiation objectives or reasonableness determinations for
these increases documented in the contract file.              Price reasonableness
determinations are required for forward prices as well as for initial contract pricing
awarded. Further, embedded rate escalation in commercial price lists is inconsistent
with the structure of current EPA clauses and results in loss of forward price
protection for the government. Additionally, overall escalation practices are
inconsistent in how rate increases are determined.


Support for MFC Pricing is Inconsistent. Offerors submitting proposals under the
MAS Program are required to identify their MFC on their Commercial Sales
Practices (CSP) form and provide related MFC price/rate information. In the majority
of contract files we reviewed, documentation indicated that COs attempted to
confirm rate information submitted by offerors when making their MFC
determinations. However, we noted that some COs did not seek additional
information beyond the offeror’s assertion of their MFC rates on the CSP. Limited
and/or inconsistent policy may have contributed to this circumstance. Numerous
OIG pre-award audit reports have found discrepancies in MFC information provided
by contractors, indicating that the government would benefit from a higher level of
MFC pricing assurance prior to initial contract award.

The Competition in Contracting Act of 1984 requires that MAS contracts and orders
result in the lowest overall cost alternative to the government. A critical step toward
obtaining this result is the targeting of MFC pricing. The mandate to pursue MFC



                                          8
pricing ensures that MAS contract pricing harnesses the Federal government’s
collective buying power for pricing purposes. In report GAO/GGD-93-123, “Multiple
Award Schedule Contracting Changes Needed in Negotiation Objectives and Data
Requirements”, the U.S. Government Accountability Office (GAO) specifically
recommended this methodology to the GSA Administrator stating, “amend MAS
policies to clearly state that GSA's price analysis to establish the government’s
negotiation objective should start with the best discount given to any of an offeror’s
customers.” GSA adopted this recommendation into GSAR; mandating that “The
government will seek to obtain the offeror’s best price (the best price given to the
most favored customer)”.

We noted four methods used by the COs in an attempt to substantiate MFC pricing.
The most common method is for the COs to obtain relevant invoices from the
offeror. Offerors can provide invoices with little difficulty in what is essentially an
honor system since validity and accuracy do not have to be certified. For offeror
invoices to be of value when determining MFC pricing, they must be genuine, timely,
and in a format that is comparable to CSP information.

In lieu of invoices, another method used was for the CO to obtain payroll or labor
cost information directly from the offeror. This may be the most reliable information
available if the offeror does not have significant commercial sales. However,
providing this information increases the burden on the offeror and may require
devoting additional government resources for analysis. Additionally, while the CO
may request this information, the FAR specifies that the CO may not ask the offeror
to certify it except under a very limited set of circumstances. The value of having the
CO utilize this information may only be cost beneficial for contracts of a higher
estimated value or risk and/or that do not have commercial sales available to
substantiate their rates.

Another method noted is for the CO to contact the MFC directly and independently
confirm the rates submitted by the offeror. Confirming the offeror’s assertion of MFC
pricing in this manner is analogous to the process used by public accounting firms to
confirm accounts receivable and bank balances of public companies undergoing
financial audits. This form of evidence is potentially very reliable because the
confirming information is received directly from an independent, third party.
Depending on the format of the CSP, this methodology results in no additional
burden to the offeror. This may be a viable technique because the offeror’s
customers currently provide similar information, such as that used by the Dun &
Bradstreet Open ratings.

Finally, we noted that COs did not obtain invoices from the contractor when audits
had been performed on the contract base period. Audits are among the most
reliable methods for confirming contractor assertions, and Defense Contract Audit
Agency (DCAA) price information and GSA OIG audits are sometimes available to
aid in determination of fair and reasonable prices. Procurement Information Bulletin
(PIB) 05-2, “Audit Assistance Multiple Award Schedule (MAS) Contracts”, instructs



                                          9
COs to seek audits for contracts with higher acquisition values 10 or under special
circumstances. However, audits require additional information from the contractor
and audit work; both of which may impact lead time required to make an award.

Of the 24 contract files we reviewed containing         Figure 2: MFC Pricing Support
price analyses, each asserted that MFC pricing
was targeted for negotiations. However, as                                        Contracts with
depicted in Figure 2, support for this assertion                                  pricing support
varied widely and in several cases adequate                8
support was not available. For 8 contracts we                                     Contracts with
did not find invoices in the contract files to                        16          no pricing
                                               11                                 support
substantiate MFC pricing and, in 6 of the 16
contracts that contained support, invoices were
either not provided in a form that was
comparable to the CSP or the information was
not timely or credible. Some of the discrepancies we found included:

     • Invoices contained consolidated (rolled up) line items that were not comparable
       to the rates of individual labor categories offered.
     • Invoices offered information to support one Special Item Number (SIN) of the
       offeror’s proposal, such as hourly rates for professional services, but did not
       include information to support other SINs, such as training courses.
     • Invoices offered support for March 2007 negotiations that were dated as far
       back as 2002.
     • Invoices that had printed line items obscured (whited out) and overwritten by
       hand. The audit team deemed these invoices unreliable.
     • The Federal government was listed as the MFC when the actual MFC was a
       prime contractor and the offeror was a subcontractor to the prime.

Additionally, some determinations of price reasonableness required by the FAR were
based solely on the offeror’s assertion that government pricing bettered MFC pricing
without substantiation of these rates or further comparison to the market place.
Limited national policy exists related to confirmation of MFC and other pricing/rate
information and, in large measure, leaves any verification of CSP information to the
discretion of the CO. In its discussion of cost and price negotiation policies and
procedures, FAR 15.402 helps establish a ceiling on information requests stating
that COs should not obtain more information than is necessary. PIB 04-2,
“Achieving Fair and Reasonable Prices in MAS Negotiations”, helps establish a floor,
stating that COs are empowered to ask offerors questions and seek additional
supporting information when verifying MFC. This PIB also reminds the CO that audit
assistance is available to verify any assertions about the offeror’s commercial pricing


                                                            
10
   Applicable when the estimated dollar value for the 5-year option period is greater than $25 million and when
processing modifications to add SINs with an estimated value exceeding $2.5 million.
11
   GSA Office of Inspector General audit reports were available as support for three of the contracts we
evaluated.


                                                               10
or marketing practices. These are broad parameters with considerable latitude for
techniques to confirm and potentially enhance pricing.

In interviews with COs, some indicated frustration with the lack of clarity of national
policy and guidance. Some commented that national policy and guidance is not
consistently numbered or centrally located, which led to instances where COs were
actually using outdated policy and guidance. Additionally, some COs were unclear
about which policies and guidance were mandatory and which were advisory. This
leads to a number of approaches that may confuse offerors and/or not adequately
protect the government. Further, Centers have policies that range from always
requiring invoices for price/rate determinations, to requiring invoices for services
only, to having no stated policy. We noted that in some cases COs confirmed all
offered rates and in other cases, the CO used a sample to validate the rates.

Numerous OIG pre-award audit reports have found discrepancies in the reporting of
MFC information by contractors, indicating that the government would benefit from a
higher level of MFC pricing assurance. If obtaining MFC pricing is the sole or
primary step when determining fair and reasonable prices for contracts that can run
for as long as 20 years, there is clearly the potential for an adverse impact if MFC
pricing is not accurately determined.


Exclusion of Relevant Cost Analyses. The FAR prescribes policies and procedures
unique to the acquisition of commercial items and mandates that COs establish price
reasonableness as a part of this process. The FAR lists both price analysis and cost
analysis as methods for making this reasonableness determination. The acquisition
personnel whom we interviewed generally indicated that they prefer price analysis to
cost analysis, although some said they use cost analysis in certain cases. By
contrast, other acquisition personnel informed us that they are not allowed to use
cost analysis when considering offers under the MAS Program. Inconsistent
interpretations of the FAR and the exclusion of relevant, reliable data may lead to
acceptance of pricing that is not fair and reasonable.

FAR 12.209 mandates that COs establish price reasonableness in accordance with
FAR 13.106-3, 14.408-2, or Subpart 15.4, as applicable. FAR 15.402 provides a
hierarchy of preference for determining the type of information the CO should use to
assess what is fair and reasonable. This first preference tier within this hierarchy
under FAR 15.402(a)(1) is for prices determined by competition and is not relevant
to the initial award of a contract awarded under the MAS Program. The second
preference tier under FAR 15.402(a)(2) includes the use of information either related
to prices or to cost information that does not meet the definition of cost or pricing
data at FAR 2.101. FAR 2.101 clearly defines “cost or pricing data” as data
requiring certification in accordance with FAR 15.406-2. The cost and price data
offerors submit on their CSP does not require certification and falls within this
second preference tier, as does cost build-up information that the OIG frequently
utilizes during its pre-award audits.



                                          11
The MAS Program deals with commercial items, and FAR 15.404-1(b) mandates
that price analysis be performed for commercial items; however, it does not mandate
that cost analysis not be used. Rather, the FAR 15.404-1(a)(1) states “the analytical
techniques and procedures described in this subsection may be used, singly or in
combination with others, to ensure that the final price is fair and reasonable. The
complexity and circumstances of each acquisition should determine the level of
detail of the analysis required.” Additionally, FAR 15.404-1(a)(4) states that “Cost
analysis may also be used to evaluate information other than cost or pricing data to
determine cost reasonableness or cost realism.”

When offerors submit proposals for a contract under the MAS Program, they are
required to identify their MFC on the CSP and provide information regarding pricing
and commercial practices. Because this pricing information does not require
certification, it does not meet the definition of “cost or pricing data” according to FAR
2.101. Some offerors also submit cost data with their CSP if the terms and
conditions under which they transact business with their major customers are based
on cost, or if they do not have significant - or any - commercial sales of items
(including services) offered under the MAS Program. This cost information does not
require certification; therefore, it also does not meet the definition of cost or pricing
data according to FAR 2.101.

COs generally preferred price analysis as opposed to cost analysis, stating that it is
more consistent with the commercial practices emphasized by the MAS Program,
and in several cases saying it is easier than cost analysis. The most common price
analysis technique we noted was comparison between the offeror’s stated MFC
pricing and pricing available from other contractors on GSA Advantage 12 .

Some acquisition personnel stated that they use cost analysis if they do not believe
that the pricing data provides enough information to make a reasonableness
determination. They may also use cost analysis if the offeror does not have
significant commercial sales for the offered item(s). We also noted one instance
when the CO’s rationale for negotiating a wage escalation rate that exceeded the
documented national index was based on the offeror’s argument that their costs
were higher due to their geographic location.

Conversely, some COs informed us that they are instructed not to use cost analysis
when considering offers under the MAS Program. Further, some acquisition
personnel sent letters to OIG audit staff directing them to limit the scope of their
audits by not requesting cost data from contractors during pre-award audits for
contract extensions, even when the contractor did not have commercial sales and
cost build-up was the basis of the original award. This direction is provided in


                                                            
12
  The GSA Advantage online shopping and ordering system includes supplies and services under all of the GSA
Schedules. Electronic ordering through GSA Advantage allows a customer to send an order directly to the
Schedule contractor.


                                                               12
contradiction to FAR 15.404-2(c)(3) which states, “The auditor is responsible for the
scope and depth of the audit.”


A Flawed Tool was used to Determine Fair and Reasonable Pricing. To facilitate
price analyses when assessing wage rates for offered labor categories, one Center
developed and implemented a pricing tool. We found this pricing tool was used to
establish negotiation objectives and make the FAR-required determinations that
prices are fair and reasonable. While the initiative to capture the information is
admirable, inconsistent data, inaccurate computations, and misapplication of this
tool by acquisition personnel render it invalid as an indicator of pricing. Further, the
tool is not adequate to set negotiation objectives or make pricing determinations as
required by the FAR. When reliance was placed on this pricing tool - particularly to
the exclusion of other, more reliable evidence - the government did not have
assurance that prices were fair and reasonable.

While drafting this report, subsequent to the completion of our audit fieldwork, we
held discussions with Center management concerning this finding. During these
discussions Center management asserted that they had implemented refinements in
both the use of the pricing tool and in the tools design since our original site visit.
Limited follow up testing assessed and largely confirmed these assertions; the
results of the follow up testing are summarized at the end of this section.

The pricing tool is one component of a larger database that this Center constructed
using Microsoft Access. In addition to price analysis, personnel use the database to
perform a variety of tracking and reporting functions.

The Center designed the pricing tool component of this database to select recently
awarded wage rates for labor categories with titles similar to that of the offered labor
category. These wage rates are then used as source data to compute a composite
“weighted price”. Users can filter the source data by inputting criteria into three
fields: Labor Category, Business Size, and Schedule Name. Other user inputs
provide data and ranges for calculations performed by the pricing tool (see Image 1
– Pricing Tool Summary Screen below).




                                          13
           Image 1 – Pricing Tool Summary Screen




                                                                             These two rates are for the
                                                                             same position in the same
                                                                             company; one is for work
                                                                             performed at a government
Filters                                                                      site and the other is for work
that are                                                                     performed at the contractor
input                                                                        site. While the one rate
                                                                             exceeds the other by 5%,
                                                 Other                       we found both rates used in
                                                                             the weighted price
                                                 Inputs
                                                                             calculation. The pricing tool
                                                                             made no distinction between
                                                                             work locations and their
               The audit team placed this box
                                                                             associated wage rates, nor
               here to prevent the publication
                                                                             does it determine whether
               of contract numbers and
                                                                             the price differences are
               company names.
                                                                             reasonable.



           We found that COs used the weighted price as the starting point to develop price
           ranges. These price ranges - which were not developed consistently among the
           contracts - were then used to establish negotiation objectives and make
           determinations of whether the offeror’s rate was fair and reasonable by price
           comparison. FAR 15.404-1(b)(2)(ii) does indicate that comparison of previously
           proposed prices and previous government and commercial contract prices with
           current proposed prices for the same or similar items is an acceptable methodology,
           but only if both the validity of the comparison and the reasonableness of the
           previous price(s) can be established.

           Among our concerns with the validity of the pricing tool’s rate comparison were the
           tool’s reliance on labor category titles as the primary filter, a lack of consideration of
           several critical pricing factors, and the source data and actual computations that
           result in the weighted wage rate. Further, in the absence of a formal written policy,
           acquisition personnel had used the tool differently from the planned usage
           expressed by Center management.

           Although the usage of “Labor Category Title” as the main filter criterion is a logical
           starting point for analysis, there is no standard naming convention for labor
           categories among MAS contractors; therefore, identification and analysis by like or
           similar labor category titles is not sufficient. Qualitative analysis of critical labor
           category factors such as the complexity of the underlying position, level of
           responsibility, and other basic requirements such as mandated professional


                                                          14
licensing, certification, etc., is essential to ensure that a valid comparison is
conducted. In addition, the pricing tool does not include consideration of geographic
location and related pricing differences. Without additional analysis, the pricing tool
does not offer assurance of a valid price comparison.

In addition to concerns regarding the pricing tool’s basic design characteristics,
GSA’s OIG staff statistician concluded that the calculation used by the pricing tool to
compute “weighted price” mixes summary statistical data from different data fields
and is not a valid methodology. Further, we determined that a significant number of
the records in this tool did not contain required data.

During our original site visit, the Center’s management informed us that the pricing
tool is a secondary tool, but in over half the contracts we sampled at this center
during this visit, we found its use was primary and/or played a prominent role in the
price analyses. Additionally, the pricing tool had been cited in correspondence from
this Center to OIG audit staff that directed the OIG not to request cost build-up data
from contractors during pre-award audits. This occurred even when cost build-up
was the original basis of award (see quoted excerpt from letter below):

       [This center] utilizes a database containing awarded labor categories and prices
       for all. . . contracts awarded within the past two years (several hundred contracts
       have been awarded in the past two years, so there is much information to perform
       a price analysis for same or similar labor categories with same or similar
       education and experience requirements). This information is used to perform a
       price analysis in accordance with FAR 15.404-1(b)(2)(ii). Because GSA is
       awarding commercial contracts, a price analysis is required rather than a cost
       analysis; FAR 15.403-1(c)(iii)(3) specifically excludes commercial items from the
       requirement for cost or pricing data. I have adequate information available to
       determine prices fair and reasonable through price analysis; therefore, you are
       required to not perform any analysis of the contractor's actual costs (cost-build-
       up), even if a cost-buildup was submitted by the contractor and reviewed by GSA
       prior to the initial contract award and used to determine prices fair and
       reasonable. GSA will determine existing prices to be fair and reasonable based
       on a price analysis and other information provided by the contractor (specifically,
       the CSP, invoices, or other information relative to the contractor's pricing
       practices).

However, during this audit, the Center personnel worked with OIG contract audit
staff to resolve this issue. The Center’s intent now is to provide guidance as to when
cost analysis may be appropriate, such as when an offeror does not have
commercial sales but seeks to establish an MAS contract.

Additionally, while drafting our report we held follow-up discussions with Center
management concerning the use and design of this pricing tool. During these
discussions Center management stated that refinements were made to both the
design and application of pricing tool since our original site visit. Management
agreed that reliance on this pricing tool without additional analysis is insufficient to
make determinations of fair and reasonable pricing. They stated that while we may
have found the pricing tool being used in a manner contrary to their instruction



                                                15
during our original visit, significant progress had been made since then to assure
that this tool is used as a secondary indicator in conjunction with other analyses.

Limited follow up testing evaluated these assertions. Our follow up testing consisted
of an analysis of contract files and the most recent version of the pricing tool. While
we did find one file that relied on the pricing tool for its determination of price
reasonableness, we noted improvement in documentation of other forms of pricing
analyses and support in the majority of the contract files that we reviewed. A
number of changes had also been made to the pricing tool’s design to address our
concerns. We were also provided with a draft written policy concerning usage of this
tool that clearly states the tool’s use is to be secondary and supported by other
analysis. We agree with the policy’s statement on the need for other forms of price
analysis; however, we remain concerned about the design of the pricing tool.
 

Commercial Price Lists Improperly Contain Embedded Wage Rate Escalations. We
found some contracts utilizing Commercial Price Lists (CPLs) that included
embedded wage rate escalations when using EPA Clause GSAM 552.216-70.
Wage rate escalation embedded in a CPL is inconsistent with provisions for price
increases in the applicable EPA clause. While we found no policy or guidance that
specifically addressed this situation, this practice effectively removes one element of
price protection afforded the government.

Under the MAS Program, contractors offer professional services billed at hourly
rates for each labor category offered. In some cases these professional service
rates are also offered using other bases, such as daily rates. The CO evaluates
offered rates for initial award and, if accepted, they become the rates for the first
year of the MAS contract. The EPA clause in the MAS contract provides the
mechanism by which the contractor can obtain rate increases from the base year to
the subsequent years of the contract 13 . The EPA clause ensures that the
government receives goods and services at fair and reasonable prices while
allowing contractors to adjust prices over the potential 20 year contract period.

The CO can apply one of two different EPA clauses depending on the commercial
sales practices of the offeror. The CO employs GSAM 552.216-70 as the EPA
clause (Appendix B) if the offeror utilizes a CPL in its ordinary business practices. If
the offeror does not maintain a CPL but relies on another methodology - such as
charging standard rates to their commercial clients - then the CO will use EPA
clause I-FSS-969 (Appendix C). Each of these clauses has requirements that afford
both the contractor and the government protection tailored to the commercial
practices of the offeror. The clauses protect contractors by permitting them to raise
rates over the life of a contract, and the government is protected by having various
controls over this rate increase process.


                                                            
13
     MAS contracts have a five year base period and three option periods of five years each.


                                                               16
When the contractor’s commercial practices include the use of a CPL, GSAM
552.216-70 requires the contractor to submit a new CPL to obtain a rate increase.
In addition, the contractor must submit a justification for the increased rates reflected
in this CPL. COs commonly require copies of invoices from the contractor’s
commercial customers to confirm that the new CPL is being used in ordinary
commercial practice before modifying the MAS contract to permit the rate increase.
In addition, GSAM 552.216-70 contains other restrictions that relate to the frequency
and amount of permitted rate increase requests in a given timeframe 14 .

We reviewed seven contracts that were awarded to contractors who utilize a CPL
and applied the EPA Clause GSAM 552.216-70. Three of these CPLs contained
rates with embedded escalation for each year of the contract. Embedded rate
escalation in the CPL changes the premise under which GSAM 552.216-70 was
designed to provide price protection and diminishes this clause’s ability to protect the
government from unreasonable rate increases.

CPLs with embedded escalations create the potential for contractors to benefit from
annual price increases incorporated in the CPL without previously submitting
justification and/or substantiating that these rates are being charged to their
commercial customers as required. Thus, the government loses an important
preventive price protection control. Contractors would also retain the option of
submitting a new price list within the confines of this EPA clause if they are not
satisfied with the embedded increases already contained in their CPL.


Inconsistent Escalation Practices. We noted inconsistencies in the negotiation of
future rate increases when offerors did not use a CPL but relied on another
mechanism, such as billing their clients’ standard professional rates. Inconsistent
approaches to escalation may confuse offerors and make the budget process more
difficult for client agencies. Limited policy and guidance are available to help clarify
these situations.

When the contractor uses standard professional rates as opposed to a CPL, EPA
clause I-FSS-969 is included in the contract. In these cases, the contractor and the
government address future rate increases as a part of the negotiation process
leading to initial contract award. Rate increases are negotiated as a fixed annual
percentage increase or can be negotiated using an agreed-upon index.

The COs awarded escalation for inconsistent timeframes. Some COs informed us
that they prefer contractors initiate requests for rate increases on an annual basis.
These COs indicated that an annual review of proposed contractor rate increases
gives them greater control over rates, citing that as an advantage to the government.
                                                            
14
  Typically these provisions preclude the submission of the initial request until the contract has been in force for
30 days, restrict the frequency of requests to 3 over each 5 year contract period, and cap the overall increase at
a specified percentage.

 


                                                               17
If the types of task orders submitted against a particular schedule are typically for
one year or less, and there is significant economic volatility, negotiating increases
annually may make good business sense. One disadvantage to this methodology is
that greater workload is placed on the CO compared to awarding multiple years of
annual increases during the initial contract award. Another disadvantage is the
effect this may have on customer agencies planning a task order that spans more
than one year against an MAS contract. Not knowing future rate increases for all
years of a prospective task order can hamper an agency’s budgeting and planning
process.

Conversely, awarding multiple years of rate increases involves risk that negotiated
rates may not accurately reflect the rates charged in the commercial market place in
the future. There are techniques being used to mitigate this future uncertainty. In
some cases where COs negotiated multiple years of rate increases, we noted the
use of independent benchmarks such as the Bureau of Labor Standards (BLS)
Employment Cost Index (ECI) 15 as a basis for negotiation. Additionally, some COs
informed us that while they may initially award annual rate increases for the entire 20
year length of the contract, they revisit the negotiated rate of increase at each five
year option period. While we understand that varying periods of rate escalation may
be appropriate based on the needs of contractors and authorized MAS users that
are specific to a particular schedule, we found no guidance in this area.

The BLS has established general guidelines when using an ECI as the market
indicator on government contracts. These guidelines emphasize the importance of
specifying the costs to be escalated, choosing an index that is reflective of the
occupations evaluated, identifying the year of the base labor costs, and establishing
the frequency of adjustment 16 . However, we noted inconsistencies in the COs’
selection and use of the BLS ECI tables. COs did not consistently document their
rationale for index time period selection, which ranged from one to five years.

In one contract, we noted percentage differences between the quarterly, yearly, and
five year index for Series CIU2015400000000A Total Compensation, Private
Industry, Professional, scientific, and technical services, Not Seasonally Adjusted.
As indicated in Table 4, indices fluctuate more in the short term than in the long
term. The CO negotiating this contract used a one year index (2006) from this table
to substantiate a 4% increase over the five year base of this contract. However, use
of the five year average of 2.9% in lieu of 4% may have resulted in savings of over
$588,000 on this contract over its five year base period valued at $25 million.




                                                            
15
   The BLS publishes a number of Economic Cost Indices on a quarterly basis that measure the changes in the
cost of labor among several different labor occupations and industries. Many government agencies utilize these
indices to establish compensation costs and measure changes in them.
16
   How to use the Employment Cost Index for Escalation, http://www.bls.gov/ncs/ect/escalator.htm, viewed May,
2008


                                                               18
Table 4:            Series CIU2015400000000A, Total Compensation, Private Industry, Professional,
                    scientific, and technical services, Not Seasonally Adjusted
     Year                       Qtr 1                          Qtr 2        Qtr 3          Qtr 4        Annual Average
     2002                      2.40%                           2.40%    1.40%              1.00%            1.80%
     2003                      2.10%                           2.10%    3.20%              3.90%            2.83%
     2004                      4.20%                           4.50%    4.40%              4.20%            4.33%
     2005                      3.70%                           2.60%    1.30%              1.20%            2.20%
     2006                      1.80%                           3.10%    4.10%              4.40%            3.35%
                                                                                    Five Year Average       2.90%


Similarly, in cases when the COs from the same Center utilized the BLS ECI, we
noted variations in the selection of index tables used when negotiating future rate
increases. Additionally, there were instances when the CO did not note the specific
table used in the contract file documentation. We also noted one instance when the
CO created a custom table for ECI analysis for a single contract award. One Center
attempted to promote consistency when using the BLS ECI by including a
spreadsheet on its shared drive for COs to use, but another CO indicated that they
preferred their own methodology. These types of inconsistent applications can
create confusion for contractors and COs alike.


Internal Controls

We identified controls at both the national and Center level designed to provide
reasonable assurance 17 of the implementation of procurement policy and guidance.
However, we found opportunities for improvement. A lack of clearly defined
responsibilities negatively impacted the use of Prenegotiation Clearance Panels as a
national oversight control. We also noted isolated instances of inaccurate contractor
postings on GSA Advantage, one of which could have resulted in overcharges to the
government of more than $590,000.

Internal controls are the processes and procedures used by GSA to ensure the
agency accomplishes its goals and objectives. Internal controls (i.e. management
controls) aid GSA in managing the risk associated with GSA programs and
operations and achieving its desired results through the effective stewardship of the
public’s resources. Among the objectives of internal control are the effectiveness
and efficiency of operations and compliance with laws and regulations. Internal
controls are the first line of defense in safeguarding assets and preventing and
detecting waste, fraud, abuse, and mismanagement.


                                                            
17
  Reasonable assurance refers to the concept that internal controls provide reasonable, not absolute, assurance
that the agency’s activities are being accomplished in accordance with its control objectives. The concept of
reasonable assurance recognizes that the cost of internal controls should not exceed their benefit; controls
should be reasonable when weighed against cost, benefit, and risks.


                                                                       19
Prenegotiation Clearance Panel (PNCP) benefits not fully realized. We found that
the current Office of Acquisition Management (QV) is not receiving or monitoring
results of the PNCP reviews. Federal Supply Service (FSS) Acquisition Letter FX-
03-1, updated through Supplement No. 3, dated February 18, 2005, established an
Acquisition Quality Measurement and Improvement Program, which included
requirements for the use of PNCPs and for the reporting and monitoring of their
results. However, responsibilities for the PNCP reporting process were not clearly
defined during the transition to the new FAS organization. Without centralized
control, much of the designed benefit of this program is lost.

The Acquisition Quality Measurement and Improvement Program implemented
GAO’s recommendations for the use of PNCPs and for the reporting and monitoring
of their results 18 . The stated objectives of the PNCPs are to measure compliance
with all negotiation requirements with an emphasis on pricing. These measurements
can then be used to provide a baseline against which activities can track
improvements in the quality of contract negotiations and awards. The purpose of the
PNCP is to help identify areas where more effective on-the-job training and formal
training of contract negotiators is needed, and to provide for greater adoption of
innovative price negotiation strategies and other best practices.

Each acquisition activity is required to report to the Assistant Commissioner of its
business line and to Acquisition Management (identified in FX-03-1 as FXA) on the
PNCPs performed during the prior three month period.                The Assistant
Commissioners are instructed by the Acquisition Letter that they may use the report
to measure activity compliance with the Acquisition Letter and to recommend
changes to Acquisition Management. Acquisition Management is directed to use the
report to discover best practices and pricing trends which may be incorporated into
future training or Procurement Information Bulletins (PIBs).

The reporting requirement is designed to aid in the discovery of best practices and
pricing trends and is consistent with testimony given to Congress by GSA’s Chief
Acquisition Officer in 2005, in which she stated “. . . we have made the pre-
negotiation panels GAO recommended in their February 2005 report mandatory and
have already revised our program operating procedures to require reports on pre-
negotiation clearance panels. The reports of these panels will then be used to
assess progress in the effectiveness of negotiations and will be an opportunity to
share best practices.”

Our assumption was that in the FAS organization, QV had assumed all of the
responsibilities of FXA. To evaluate whether the Centers are properly reporting
PNCP results, we requested PNCP summary reports from QV. After receiving our
request, QV indicated that they were not receiving the quarterly summary reports
and were therefore unable to provide copies to us.


                                                            
18
     GAO-05-229, Opportunities to Improve Pricing of GSA Multiple Award Schedules Contracts


                                                               20
We did evaluate quarterly PNCP reports that two Centers provided to us to
determine if the report contained the information required to accomplish the
objectives established in the Acquisition Letter. While the reports contained some
information required by the Acquisition Letter, they did not have any of the qualitative
information requested, such as the effectiveness of the panels, recommendations for
improvement to the PNCP procedures, or requests for modification of the activity's
PNCP threshold.


Contractor Posted an Unapproved CPL to GSA Advantage. During our review we
found one instance when a contractor posted a CPL to GSA Advantage that the CO
did not approve. This CPL contained not only the rates awarded for this contract
extension (listed as 2005 rates), but also unauthorized embedded price increases for
years 2006 and 2007. The CO informed us that there was a mistake in the posting
of the CPL with the escalated rates to GSA Advantage, and the CO directed the
contractor to correct this. Since this extension was awarded in February of 2007
and the correct price list was not posted until June 2008, it is possible that the
contractor may have charged unauthorized rates, which were approximately 7.7%
higher than approved for a period exceeding a year. Contractor sales for completed
quarters on record during this period were approximately $7.79 million which would
equate to overcharges exceeding $590,000.

In this instance, the CO awarded the contract extension using a CPL as the basis of
award even though an OIG pre-award audit had determined that the contractor
lacked commercial sales. This audit recommended that the CO use cost build-up
information to determine whether prices were fair and reasonable in the absence of
significant commercial sales.      The CO’s rationale was that it was more
advantageous to the government to lock-in the current (2005) pricing than it was to
switch the basis of award from the CPL. EPA clause GSAM 552.216-70 would
secure this pricing because the contractor could not raise rates until it could
substantiate commercial sales from a new CPL. However, when the contractor
posted its CPL to GSA Advantage it included unauthorized escalated rates for 2006
and 2007. This could have resulted in overcharges as previously indicated.

We are aware of another case where a contractor posted unauthorized information
to GSA Advantage. GAO recently reported that a contractor posted services to GSA
Advantage that were out of scope for the contract and recommended that GSA
implement controls to prevent contractors from improperly advertising their
services 19 . Inaccurate information on GSA Advantage may have an adverse impact
on authorized users of the MAS Program who count on this system to provide
reliable information when making acquisition decisions.




                                                            
19
     GAO-08-360, Army Case Study Delineates Concerns with Use of Contractors as Contract Specialists


                                                               21
Procurement and Operational Business Practices

During this review, we identified a variety of practices within the Centers developed
to improve efficiency and effectiveness. In this section we will communicate these
processes as some may be potential best practices for consideration across the
MAS Program. Specifically, we noted the use of volume discounts as a negotiation
objective, various pricing resources to verify fair and reasonable pricing, different
methods used to enhance policy communication, and procurement tools and
controls used to improve efficiency.

Volume Discounts Improve the Government’s Purchasing Power. Some of the
contracts we reviewed contained volume discounts for orders below the maximum
order threshold. FAS does not currently mandate that contracting personnel
negotiate volume discounts. However, contracting personnel we spoke to indicated
that it is in the best interest of both parties to pursue volume discounts because the
government benefits from the cost savings and contractors benefit from longer term
contracts that result in higher volume purchases.

Each schedule contract has a maximum order threshold established on a SIN-by-
SIN basis. Although a price reduction may be sought at any time, this threshold
represents the point where, given the dollar value of the potential order, the ordering
activity shall seek a price reduction 20 . We noted some contracts leveraged the
government’s purchasing power by establishing volume discounts for orders below
the maximum order threshold, while others did not. While we encourage the pursuit
of volume discounts, inconsistent negotiation approaches may lead to confusion for
contractors and ordering agencies.

Examples of volume discounting we saw included:

      • 2% for individual orders of $500,000 or more on a contract with a maximum
        order threshold of $1 million.

      • The contracting official obtained the same volume discount that the offeror was
        already extending to other commercial customers.

      • 1% discount on orders over $350,000.

      • Offeror proposed an additional 1% discount on orders over $500,000.

      • 1% discount on orders over $100,000 and 2% discount on orders over
        $200,000.

      • 5% discount on orders over $50,000, 6% discount on orders over $500,000.


                                                            
20
     FAR § 8.404(d), Orders exceeding the maximum order threshold


                                                               22
Volume discounts below the maximum order threshold leverage the government’s
purchasing power. This benefit is two-fold if volume discounts are negotiated as part
of the initial award; (1) ordering agencies receive additional discounts without further
negotiation, and (2) contractors benefit from the government’s incentive to pursue
higher volume purchases. While we encourage the pursuit of volume discounts for
initial contract award, consistent approaches are needed to lessen confusion among
contractors and ordering agencies.


Alternative Pricing Resources.      We noted Centers using the following pricing
resources and methodologies:

  • Publicly published information such as the www.salary.com website, trade
    publications, newspapers and periodicals for articles on the industry and any
    recent changes that may affect their evaluation.

  • Payroll information from the contractor to verify salary increases before
    granting wage rate escalations and to ensure the contractor is following the
    terms and conditions of the contract.

  • Comparing offered rates to rates already awarded by the Center for the same
    labor categories.

  • Bureau of Labor Statistics Employment Cost Index information.

These resources appear transferable between Centers and schedules and could
add benefit to pricing determinations.


Communication Techniques Enhance Policy Dissemination. Several Centers have
implemented communication techniques to deliver policy and promote consistency
of practices within acquisition. Although each Center operates differently and has
varying lines of business, some of the practices used may be transferable between
Centers.

  • Center personnel can, and do for the most part, receive automatically
    generated FAS clause manual email updates. Each time there is an update in
    the FAS clause manual, the service notifies registered users via email,
    informing them of the new change.

  • Conversely, management in one Center interprets all new policy and uniformly
    disseminates it to Center personnel. This allows contracting personnel to focus
    on their work and receive the changes that pertain to the work they do on a
    daily basis. Additionally, information communicated from one central location
    promotes consistency and relieves confusion that can occur by individual
    interpretation of policy.


                                          23
  • Some Centers use a shared drive to house training material, templates, and
    other helpful information. Personally developed work is also available,
    assisting other Center personnel with similar industry offering situations.

  • Branch Chiefs in one Center hold meetings once a week to discuss policy
    dissemination of new information. If there is anything urgent that comes up,
    they call a staff meeting to inform everyone in a timely fashion.

  • Monthly “brown bag” sessions where contracting personnel can talk directly to
    the Center director on contract policy and any other questions or concerns they
    may want to address. Contracting personnel mentioned that these informal
    “brown bag” sessions provide a forum where their voice can be heard.

  • Some Centers host Industry Day events where contractors can meet with the
    contracting personnel handling their contract and also attend information
    sessions on doing business with the government.

Some Centers provide additional opportunities for contracting personnel to
participate in processes that better familiarize them with the policies and practices of
contracting for the government. These experiences may help them apply techniques
to their own daily tasks.

  • One of these opportunities exists in the Procurement Management Review
    (PMR) process. Generally, the PMR team consists of individuals who travel to
    the Centers and review the contracting practices of each Center. Occasionally,
    contracting personnel from a Center are selected to join the team as a
    reviewer. Through this experience, contracting personnel have the opportunity
    to witness other contracting practices and potentially apply those techniques to
    their own work or work at their Center.

  • Another opportunity exists to gain knowledge from experience by observing a
    PNCP. Each Center is required to use PNCPs for high value or unique pricing
    situations. Some Centers permit/schedule COs to sit in on panel discussions
    to gain experience.

The practices above are used by the Centers to communicate and promote
consistency in their daily operations. Some of the practices may be transferable,
while others are more Center-specific, depending on the business operations of the
Center. The Centers should carefully consider some of the above practices for
adoption into their work.




                                          24
Tools and Controls that Promote Efficiency. Several Centers have developed
innovative processes and tools to improve efficiency during the procurement
process:

  • Operations Branch - When FAS issues new policy and guidance to the
    Centers, these operations branches interpret and disseminate it to Center
    personnel. Additionally, each Operations Branch arranges training on new
    policy (up to 40 hours per year); implementing the use of a shared drive to
    house training materials and other procurement support. Operations Branches
    provide effective communications lines and may relieve much of the
    administrative burden of interpreting policy placed on Center personnel.

  • Procurement Technicians - Procurement Technicians help gather, file, and
    copy information needed for each contract. Procurement Technicians function
    as “gatekeepers" and filter out the offers that are not complete or have obvious
    errors. Center management views the technicians as vital to their operations.
    This practice may allow contracting personnel to avoid unnecessary
    administrative duties and spend more time effectively negotiating contracts.

  • ImageNow – ImageNow, a management tool for storing contract files
    electronically, allows users to capture, organize, and manage data, eliminating
    the inefficiencies of filing and retrieving documents manually. ImageNow also
    helps balance workloads, allows for easy oversight access, remote access,
    and includes a search function for comparing industry similar contracts. To
    assist in the use of this product, this Center also uses dual monitors for viewing
    of electronic contract files. ImageNow, coupled with the addition of dual
    monitors, may enhance the ability to manage contracts more efficiently while
    promoting modern technologies.

  • Management Level Controls - Many Centers have incorporated different
    management level controls to ensure oversight of policy. In one Center, we
    noticed that contracts that negotiate pricing not equal to or better than MFC
    pricing require Branch Chief approval. This control requires contracting
    personnel to validate why MFC pricing was not attainable is these instances.
    Another control we became aware of was management’s review of
    subcontracting plans before contracting personnel send them to the Small
    Business Administration (SBA).

  • Minimum Sales Threshold - FAS policy requires GSA schedule contractors to
    maintain a minimum of $25,000 in sales for the first two years of operation and
    every year thereafter or risk contract cancellation. Some Centers maintain an
    up-to-date spreadsheet of low/no sales contracts that identify contractors who
    do not maintain this minimum level of sales. With contract workload becoming
    increasingly difficult to manage, we feel it is important to be aware of the
    contracts that are not meeting this requirement. Therefore, the Centers need
    more direction from FAS in this area to enforce this policy.


                                         25
  • Checklists - Procurement Technicians use checklists to ensure that new offers
    contain the necessary information to begin negotiations. This allows the COs
    to spend more time on contracting and less time on administrative tasks.
    Various versions of this type of checklist existed across several schedules. We
    also identified the use of a checklist for contract options/extensions. This
    checklist contains items in chronological order and Center personnel use it to
    identify tasks as they come due. The use of this checklist aids contracting
    personnel during the procurement process and may prevent them from
    overlooking a key element of the contract. Another Center developed a post-
    award contract review checklist. Center personnel use this checklist during
    contract file reviews on every contract negotiated in the Center to ensure
    completeness of the file. The checklist also acts as an evaluation of the
    performance of contracting personnel during negotiation of the award.
    Additionally, the checklist is distributed back to the contracting official,
    providing feedback on their performance.

In summary, continuing to develop more efficient and effective ways of administering
the MAS Program is essential to its success. Each Center has developed innovative
ways of improving the processes and programs they oversee. With proper guidance,
a number of the methods, processes, and tools that we indentified, could improve
the MAS Program by integrating them among the Centers as best practices. We
suggest FAS review these potential best practices, determine if they are viable
among the Centers, and move to implement them.


Conclusion

Our review found opportunities for the Centers to improve the consistency of
implementing procurement policy and related guidance when making the FAR
required determinations of fair and reasonable pricing and when conducting
negotiations. The contract file documentation that we reviewed consistently
indicated that MFC pricing was targeted for negotiations per the GSAR; however, we
noted inconsistent Center policy regarding MFC determinations and required support
for pricing, as well as contracts with the MFC not properly identified. Also, some
acquisition personnel stated that they are not allowed to use cost analysis when
considering offers under the MAS Program, an interpretation we do not agree with.
Given the very broad definition of commercial items in the FAR - and that some
companies may not have any commercial sales with which to establish pricing for
the MAS Program - directing staff not to use one analysis methodology may exclude
information needed to determine that prices are fair and reasonable. There are a
variety of viable techniques in use by the Centers, each offering a different level of




                                         26
assurance and corresponding challenges. However, clear policy and robust
processes are needed to satisfy the GSAR, FAR, and to reduce risk to the
government.

To facilitate price analysis and negotiations, one Center used a pricing tool. While
the initiative shown by this Center in its attempt to develop analyses tools is
admirable, reliance on this tool - and the pre-emptive exclusion of relevant, reliable
data such as that from pre-award audits - may lead to acceptance of pricing that is
not fair and reasonable to the government. We are supportive of the development of
processes and/or resources to provide pricing support for COs, provided they are
properly developed, validated, and employ appropriate usage controls. These
resources could take the form of skilled practitioners, automated systems, or use of
external support related to professional service salaries and pricing.

We noted wage rate escalation embedded in commercial price lists for professional
services but did not find negotiation objectives or reasonableness determinations for
these increases documented in the contract file. Wage rate escalation embedded in
a CPL is inconsistent with provisions for price increases in the applicable EPA
clause and effectively removes one element of price protection afforded the
government. Additionally, price reasonableness determinations are required for
forward prices as well as for initial contract pricing awarded. We also noted
inconsistent approaches to escalation negotiation procedures for contracts that rely
on standard rates in lieu of CPLs. These inconsistencies can confuse offerors and
make the budget process more difficult for client agencies. Limited policy and
guidance are available to help clarify these situations.  
 
We identified controls at both the national and Center level designed to ensure the
implementation of procurement policy and guidance. However, we found some
instances when these controls were not applied. A lack of clearly defined
responsibilities within the new FAS organization appears to have effectively
neutralized a national oversight control and may have impacted the sharing of
potential best practices between the Centers. While Center controls were in place
and used, we found cases where they did not accomplish their intended purpose,
resulting in potential harm to the government.

The Centers are using a variety of procurement and operational business practices.
Some of these practices appear transferable and could be considered best
practices. Policy enhancement and communication, as well as training may aid in
extending these practices.




                                         27
Recommendations
 
We recommend that the Commissioner of the Federal Acquisition Service:

1. Develop and implement policy and training for acquisition personnel including:
     a. MFC pricing determination that employs methodologies commensurate
         with the value and risk of the acquisition.
     b. Use of cost analysis, including a clear definition of cost or pricing data in
         relation to information requested on the Commercial Sales Practices form
         and for Office of Inspector General pre-award audits.
     c. Proper use of GSAM 552.216-70 as the Economic Price Adjustment
         clause when Commercial Price Lists contain more than base year rates.
     d. Schedule specific guidance to assist in determining wage rate escalation,
         including when escalation is appropriate, specific index selection, time
         periods for consideration, and application timeframe.
     e. Consideration of volume discounts during negotiation when offerors’
         practices include these discounts for their commercial customers, so as to
         maximize the government’s purchasing power.

2. Assess the viability of developing or establishing resources at the national level
   to support COs in all the Centers by providing cost/price analyses and support,
   particularly in the area of professional services.

3. Fully implement FSS Acquisition Letter FX-03-1, updated through Supplement
   No. 3, dated February 18, 2005, ensuring these responsibilities are all clearly
   defined within the FAS organization. Additionally, consider performing an
   assessment as to whether control functions of the legacy Federal Supply Service
   (FSS) and Federal Technology Service (FTS) organizations have been
   adequately transitioned to the new FAS organization to enhance organizational
   performance and accountability.

4. Develop and implement controls to ensure the accuracy of contract information
   published on GSA Advantage such as approved Special Item Numbers (SINs),
   authorized pricing, etc. Determine if potential overcharges discussed in finding
   occurred and if so, institute actions to recover funds.




                                         28
Management Comments

Recommendation No. 1:

Develop and implement policy and training for acquisition personnel
including:

a) MFC pricing determination that employs methodologies commensurate with
the value and risk of the acquisition.

Management Comment:
Partially agree. FAS agrees that further policy guidance and training on conducting
price analysis and implementing negotiation strategies and techniques are needed.
However, the CO is ultimately responsible for making a fair and reasonable pricing
determination. Furthermore, 15.402 Pricing policy (a) directs COs to not obtain
more information than is necessary to make a fair and reasonable pricing
determination, which often varies depending on the circumstances; therefore,
requests for additional information is often within the COs discretion. Moreover,
training for the MAS acquisition workforce should include, not only the award of MAS
base contracts, but the award of task orders and Blanket Purchase Agreements
under the contracts. The MAS Program Office (MAS PO) will begin developing
training content in fiscal year 2010.

OIG Response:
We agree the FAR states that COs should not obtain more information than is
necessary and that COs have considerable discretion when making their
determination of fair and reasonable pricing. However, PIB 04-2, “Achieving Fair
and Reasonable Prices in MAS Negotiations” provides further guidance to COs
stating they are empowered to seek additional supporting information when verifying
MFC and reminding COs that audit assistance is available to verify any assertions
about the vendor’s commercial pricing or marketing practices. This guidance
provides considerable latitude for techniques to confirm vendor assertions of MFC
pricing and to potentially enhance pricing for contracts that can run for as long as 20
years.

b) Use of cost analysis and clearly define cost or pricing data in relation to
information requested on the Commercial Sales Practices (CSP) form and for
Office of Inspector General pre-award audits.

Management Comment:
Partially agree. FAS agrees that clear policy guidance and training on the use of
cost analysis in support the COs price analysis and determination of fair and
reasonable pricing are needed. However, 15.402 Pricing policy (a) directs COs to
not obtain more information than is necessary to make a fair and reasonable pricing
determination, which often varies depending on the circumstances; therefore,
requests for additional information is often within the COs discretion.



                                          29
OIG Response:
Our primary concern in this area stemmed from acquisition personnel providing
conflicting opinions as to whether they are allowed to use cost analysis when
considering offers under the MAS Program. The overriding consideration when
selecting techniques for performing proposal analyses should be the business
practices of the contractor and the validity and reliability of the data germane to the
particular acquisition. Given the broad definition of commercial items in the FAR,
and that some companies may not have any commercial sales with which to
establish pricing for the MAS Program, relying exclusively on one analysis
methodology may not be sufficient to ensure that prices are fair and reasonable.

c) Proper use of GSAM clause GSAM 552.216-70 as the Economic Price
Adjustment (EPA) clause when they include Commercial Price Lists (CPLs)
contain more than base year rates.

Management Comment:
FAS agrees. The MAS PO will issue guidance on this topic.

OIG Response:
No response.

d) Schedule specific guidance to assist in determining wage rate escalation
including when a wage rate escalation is appropriate, specific index selection,
time periods for consideration, and application timeframe.

Management Comment:
FAS agrees. As stated in the General Comments, at times it is appropriate to have a
varying set of tools and indices, but FAS agrees that the tools and indices should be
examined for merit and consistency.

OIG Response:
No response.

e) Consideration of volume discounts during negotiation when offerors’
practices include these discounts for their commercial customers, so as to
maximize the government’s purchasing power.

Management Comment:
FAS agrees. The MAS PO is beginning to develop content for training to the
Acquisition Workforce and the consideration of volume discounts as recommended
can be included in that training for fiscal year 2010.

OIG Response:
No response.




                                          30
Recommendation No. 2:

Assess the viability of developing or establishing resources at the national
level to support COs in all the Centers by providing cost/price analyses and
support, particularly in the area of professional services.

Management Comment:
Partially agree. The Business Portfolios are beginning to incorporate cost and pricing
specialists into the staffs. The MAS PO will work to foster consistency in the cost
and pricing strategies through quarterly meetings with the Acquisition Operations
Directors and policy guidance.

OIG Response:
We will need to see Management’s action plan before we can provide an
assessment, but we are supportive of the development of processes and/or vehicles
to provide pricing support for COs, provided they are properly developed, validated,
and employ appropriate controls to ensure proper usage. The oversight of these by
a centralized authority, such as the MAS Program Office, is an appropriate step.

Recommendation No. 3:

Fully implement FSS Acquisition Letter FX-03-1, updated through Supplement
No. 3, dated February 18, 2005, ensuring these responsibilities are all clearly
defined within the FAS organization. Additionally, consider performing an
assessment as to whether control functions of the legacy Federal Supply
Service (FSS) and Federal Technology Service (FTS) organizations have been
adequately transitioned to the new FAS organization to enhance
organizational performance and accountability.

Management Comment:
FAS agrees. FAS has already begin drafting policy to address implementation of the
FSS Acquisition Letter FX-03-01 within the context of the FAS organization.

OIG Response:
No response.

Recommendation No. 4:

Develop and implement controls to ensure the accuracy of contract
information published on GSA Advantage such as approved Special Item




                                         31
Numbers (SINs), authorized pricing, etc. Determine if potential overcharges
discussed in finding occurred and if so, institute actions to recover funds.

Management Comment:
Partially agree. The FAS CIO is heading up the Enterprise Acquisition Solutions
long-term project. As part of the project, a set of standardized formatted pricelists
are in development and will be implemented for MAS for both offers and contract
modifications.    These formatted pricelists will guard against erroneous and
misleading uploads to GSA Advantage!

With respect to determining if potential overcharges occurred, and taking action to
recover any such overcharges, FAS will certainly pursue an appropriate course of
action if provided the specific contract number. FAS would also emphasize that this
finding occurred on one of over 17,000 MAS contracts.

OIG Response:
We will need to see Management’s plan concerning the Enterprise Acquisition
Solutions project before we can provide an assessment and response.

We have provided the contract number to FAS.

Internal Controls

We performed a limited assessment of controls and provided recommendations to
strengthen and improve the current practices as discussed in the Results of Review
and Recommendations sections.




                                         32
Appendices
                       REVIEW OF CONSISTENCY IN IMPLEMENTING
                         POLICY ACROSS ACQUISITION CENTERS
                          REPORT NUMBER A070118/Q/A/P09007

              Appendix A – Schedules by Center with Fiscal Year 2007 Sales
OFFICE SUPPLIES AND ADMINISTRATIVE SERVICES: New York, NY (R2)
Schedule                                                                                           FY07 Sales
67- Photographic Equipment – Cameras, Photographic Printers and Related Supplies and               $47,084,509
Services
69- Training Aids and Devices; Instructor-Led Training; Course Development; Test Administration   $227,231,843
75- Office Products/Supplies and Services and New Products/Technology                             $592,562,560
76- Publication Media                                                                             $117,878,985
738 X- Human Resources and EEO Services                                                           $177,424,885
81 I B- Shipping, Packaging & Packing Supplies- Bags, Sacks, Cartons, Crates, Packaging &          $95,026,106
Packing Bulk Material
                                Office Supplies and Administrative Services Total FY07 Sales $1,257,208,888
CENTER FOR FACILITIES MAINTENANCE & HARDWARE: Kansas City, MO (R6)
Schedule                                                                                           FY07 Sales
03FAC- Facilities Maintenance and Management                                                      $151,601,674
51 V- Hardware SuperStore                                                                         $627,490,404
                              Center for Facilities Maintenance & Hardware Total FY07 Sales $779,092,078
GREATER SOUTHWEST ACQUISITION CENTER: Ft. Worth, TX (R7)
Schedule                                                                                           FY07 Sales
056- Buildings and Building Materials/Industrial Services and Supplies                            $453,469,002
073- Food Service, Hospitality, Cleaning Equipment and Supplies, Chemicals, and Services          $202,926,727
084- Total Solutions for Law Enforcement, Security, Facility Mgmt Sys, Fire, Rescue, Special     $2,235,166,476
Purpose Clothing, Marine Craft and Emergy/Disaster Response
541- Advertising & Integrated Marketing Solutions (AIMS)                                          $520,347,488
736- Temporary Administrative and Professional Staffing Services (TAPS)                           $118,479,280
66- Scientific Equipment and ServiceS                                                             $712,149,485
                                       Greater Southwest Acquisition Center Total FY07 Sales $4,242,538,458
MANAGEMENT SERVICES CENTER: Auburn, WA (R10)
Schedule                                                                                           FY07 Sales
871- Professional Engineering Services (PES)                                                     $2,723,097,843
874- Mission Oriented Business Integrated Services (MOBIS)                                       $3,605,865,732
899- Environmental Services                                                                       $340,940,371
00CORP- Consolidated Schedule                                                                     $870,008,988
738 II- Language Services                                                                         $145,200,871
874 V- Logistics Worldwide (LOGWORLD)                                                             $647,055,674
                                                 Management Services Center Total FY07 Sales $8,332,169,479
CENTER FOR SERVICES ACQUISITION: Washington, DC (R11)
Schedule                                                                                           FY07 Sales
520- Financial and Business Solutions (FABS)                                                      $971,962,386
                                              Center for Services Acquisition Total FY07 Sales $971,962,386
INFORMATION TECHNOLOGY CENTER: Washington, DC (R11)
Schedule                                                                                           FY07 Sales
70- General Purpose Commercial Information Technology Equipment, Software, and Services         $16,416,289,465
                                              Information Technology Center Total FY07 Sales $16,416,289,465




                                                       A-1
NATIONAL FURNITURE CENTER: Washington, DC (R11)
Schedule                                                                                            FY07 Sales
36- The Office, Imaging and Document Solutions- Office Equipment Products and Services, and        $911,243,071
Document Management Products and Services
78- Sports, Promotional, Outdoor, Recreational, Trophies, and Signs (SPORTS)                       $307,444,261
58 I- Professional Audio/Video, Telecommunications, and security Solutions                         $183,382,678
71 I- Office Furniture                                                                             $891,358,237
71 II- Household and Quarters Furniture                                                             $96,162,034
71 II H- Packaged Furniture                                                                         $91,107,974
71 II K- Comprehensive Furniture Management Services                                                $35,213,866
71 III- Special Use Furniture- Library, Hospital, Mailroom, Preschool and classroom, Cafeteria,    $121,043,502
and Industrial
71 III E- Miscellaneous Furniture- Security Filing Cabinets, Safes, Vault Doors, map and Plan       $27,689,533
Files and Accessories, COMSEC Containers, and Special Access Control Containers
72 I A- Floor Coverings- Carpets, Rugs, Carpet Tiles and Carpet Cushions, Vinyl and Rubber          $47,880,463
Tiles and Rolls, Mats and Matting (with and without logos)
72 II- Furnishings- Window Treatments, Wall Art, Artificial Plants, Lamps                           $20,099,909
                                                       National Furniture Center Total FY07 Sales $2,732,625,528
GSA AUTOMOTIVE: Washington, DC (R11)
Schedule                                                                                            FY07 Sales
751- Leasing of Automobiles and Light Trucks                                                         $7,668,410
23 V- Vehicular Multiple Award Schedule (VMAS)                                                     $131,573,478
26 I- Pneumatic Tires: New for Passenger Vehicles; New and Retread for Light Trucks, Medium         $13,115,504
Trucks, and Buses
                                                                GSA Automotive Total FY07 Sales $152,357,392
OFFICE OF TRAVEL AND TRANSPORTATION SERVICES: Washington, DC (R11)
Schedule                                                                                            FY07 Sales
48- Transportation, Delivery and Relocation Solutions (TDRS)                                       $648,047,047
599- Travel Services Solutions                                                                     $272,669,168
                                 Office of Travel and Transportation Services Total FY07 Sales $920,716,215
                                                                                 Total FY07 Sales $35,804,959,889




                                                        A-2
                 REVIEW OF CONSISTENCY IN IMPLEMENTING
                   POLICY ACROSS ACQUISITION CENTERS
                    REPORT NUMBER A070118/Q/A/P09007


                   Appendix B – EPA Clause GSAM 552.216-70

552.216-70 Economic Price Adjustment—FSS Multiple Award Schedule
Contracts.
As prescribed in 516.203-4(a), insert the following clause:

ECONOMIC PRICE ADJUSTMENT—FSS MULTIPLE AWARD SCHEDULE
CONTRACTS (SEP 1999)

Price adjustments include price increases and price decreases. Adjustments will be
considered as follows:
a) Contractors shall submit price decreases anytime during the contract period in
   which they occur. Price decreases will be handled in accordance with the
   provisions of the Price Reduction Clause.
b) Contractors may request price increases under the following conditions:
   1)Increases resulting from a reissue or other modification of the Contractor’s
     commercial catalog/pricelist that was used as the basis for the contract award.
   2)Only three increases will be considered during the contract period.
   3)Increases are requested after the first 30 days of the contract period and prior
     to the last 60 days of the contract period.
   4) At least 30 days elapse between requested increases.
c) The aggregate of the increases in any contract unit price under this clause shall
   not exceed * percent of the original contract unit price. The Government reserves
   the right to raise this ceiling where changes in market conditions during the
   contract period support an increase.
d) The following material shall be submitted with the request for a price increase:
   1)A copy of the commercial catalog/pricelist showing the price increase and the
     effective date for commercial customers.
   2)Commercial Sales Practice format regarding the Contractor’s commercial
     pricing practice relating to the reissued or modified catalog/price- list, or a
     certification that no change has occurred in the data since completion of the
     initial negotiation or a subsequent submission.
   3)Documentation supporting the reasonableness of the price increase.




                                        B-1
e) The Government reserves the right to exercise one of the following options:
   (Amendment 2004–02) 552-13
   PART 552—SOLICITATION PROVISIONS AND CONTRACT CLAUSES
   552.216-71

   (1) Accept the Contractor’s price increases as requested when all conditions of
   (b), (c), and (d) of this clause are satisfied;
   (2) Negotiate more favorable discounts from the new commercial prices when the
   total increase requested is not supported; or,
   (3) Remove the product(s) from contract involved pursuant to the Cancellation
   Clause of this contract, when the increase requested is not supported.
(f) The contract modification reflecting the price adjustment shall be signed by the
    Government and made effective upon receipt of notification from the Contractor
    that the new catalog/pricelist has been mailed to the addressees previously
    furnished by the Contracting Officer, provided that in no event shall such price
    adjustment be effective prior to the effective date of the commercial price
    increases. The increased contract prices shall apply to delivery orders issued to
    the Contractor on or after the effective date of the contract modification.


                                   (End of clause)




                                        B-2
                 REVIEW OF CONSISTENCY IN IMPLEMENTING
                   POLICY ACROSS ACQUISITION CENTERS
                    REPORT NUMBER A070118/Q/A/P09007

                        Appendix C – EPA Clause I-FSS-969


I-FSS-969 ECONOMIC PRICE ADJUSTMENT-FSS MULTIPLE AWARD
SCHEDULE (JAN 2002)
Price adjustments include price increases and price decreases. Adjustments will be
considered as follows:
a) Contractors shall submit price decreases anytime during the contract period in
   which they occur. Price decreases will be handled in accordance with the
   provisions of the Price Reduction Clause.
b) There are two types of economic price adjustments (EPAs) possible under the
   Multiple Award Schedules (MAS) program for contracts not based on commercial
   catalogs or price lists as described below. Price adjustments may be effective on
   or after the first 12 months of the contract period on the following basis:
   1) Adjustments based on escalation rates negotiated prior to contract award.
      Normally, when escalation rates are negotiated, they result in a fixed price for
      the term of the contract. No separate contract modification will be provided
      when increases are based on negotiated escalation rates. Price increases will
      be effective on the 12-month anniversary date of the contract effective date,
      subject to paragraph (f), below.
   2) Adjustments based on an agreed-upon market indicator prior to award. The
      market indicator, as used in this clause, means the originally released public
      index, public survey or other public, based market indicator. The market
      indicator shall be the originally released index, survey or market indicator, not
      seasonally adjusted, published by the [to be negotiated], and made available
      at [to be identified]. Any price adjustment shall be based on the percentage
      change in the designated (i.e. indicator identification and date) market
      indicator from the initial award to the latest available as of the anniversary
      date of the contract effective date, subject to paragraph (e), below. If the
      market indicator is discontinued or deemed no longer available or reliable by
      the Government, the Government and the Contractor will mutually agree to a
      substitute. The contract modification reflecting the price adjustment will be
      effective upon approval by the Contracting Officer, subject to paragraph (g),
      below. The adjusted prices shall apply to orders issued to the Contractor on
      or after the effective date of the contract modification.
c) Nothwithstanding the two economic price adjustments discussed above, the
   Government recognizes the potential impact of unforeseeable major changes in
   market conditions. For those cases where such changes do occur, the
   contracting officer will review requests to make adjustments, subject to the
   Government's examination of industry-wide market conditions and the conditions

                                         C-1
   in paragraph (d) and (e), below. If adjustments are accepted, the contract will be
   modified accordingly. The determination of whether or not extra-ordinary
   circumstances exist rests with the contracting officer. The determination of an
   appropriate mechanism of adjustment will be subject to negotiations.
d) Conditions of Price change requests under paragraphs b(2) and c above.:
   1) No more than three increases will be considered during each succeeding 12-
      month period of the contract. (For succeeding contract periods of less than 12
      months, up to three increases will be considered subject to the other
      conditions of subparagraph (b)).
   2) Increases are requested before the last 60 days of the contract period,
      including options. (3) At least 30 days elapse between requested increases.
      (4) In any contract period during which price increases will be considered, the
      aggregate of the increases during any 12-month period shall not exceed ____
      percent (__%) of the contract unit price in effect at the end of the preceding
      12-month period. The Government reserves the right to raise the ceiling when
      market conditions during the contract period support such a change.
e) The following material shall be submitted with request for a price increase under
   paragraphs b(2) and c above:
   1) A copy of the index, survey or pricing indicator showing the price increase
      and the effective date.
   2) Commercial Sales Practice format, per contract clause 52.215-21 Alternate
      IV, demonstrating the relationship of the Contractor's commercial pricing
      practice to the adjusted pricing proposed or a certification that no change has
      occurred in the data since completion of the initial negotiation or a
      subsequent submission.
   3) Any other documentation requested by the Contracting Officer to support the
      reasonableness of the price increase.
f) The Government reserves the right to exercise one of the following options:
   1) Accept the Contractor's price increases as requested when all conditions of
      (b), (c), (d), and (e) of this clause are satisfied;
   2) Negotiate more favorable prices when the total increase requested is not
      supported; or,
   3) Decline the price increase when the request is not supported. The Contractor
      may remove the item(s) from contract involved pursuant to the Cancellation
      Clause of this contract.
g) Effective Date of Increases: No price increase shall be effective until the
   Government receives the electronic file updates pursuant to GSAR 552.243-72,
   Modifications (Multiple Award Schedule).




                                        C-2
h) All MAS contracts remain subject to contract clauses GSAR 552.238‑75, "Price
   Reductions"; and 552.215-72, "Price Adjustment -- Failure to Provide Accurate
   Information." In the event the application of an economic price adjustment results
   in a price less favorable to the Government than the price relationship
   established during negotiation between the MAS price and the price to the
   designated customer, the Government will maintain the price relationship to the
   designated customer.




                                        C-3
                    REVIEW OF CONSISTENCY IN IMPLEMENTING
                      POLICY ACROSS ACQUISITION CENTERS
                       REPORT NUMBER A070118/Q/A/P09007

                Appendix D – Price Reduction Clause GSAM 552.238-75


552.238-75 Price Reductions.
As prescribed in 538.273(b)(2), insert the following clause:

Price Reductions (May 2004)

a) Before award of a contract, the Contracting Officer and the Offeror will agree
   upon
     1) the customer (or category of customers) which will be the basis of award, and
     2) the Government’s price or discount relationship to the identified customer (or
        category of customers). This relationship shall be maintained throughout the
        contract period. Any change in the Contractor’s commercial pricing or
        discount arrangement applicable to the identified customer (or category of
        customers) which disturbs this relationship shall constitute a price reduction.
b) During the contract period, the Contractor shall report to the Contracting Officer
   all price reductions to the customer (or category of customers) that was the basis
   of award. The Contractor’s report shall include an explanation of the conditions
   under which the reductions were made.
c)
     1) A price reduction shall apply to purchases under this contract if, after the date
        negotiations conclude, the Contractor—
         i.    Revises the commercial catalog, pricelist, schedule or other document
               upon which contract award was predicated to reduce prices;
        ii.    Grants more favorable discounts or terms and conditions than those
               contained in the commercial catalog, pricelist, schedule or other
               documents upon which contract award was predicated; or
        iii.   Grants special discounts to the customer (or category of customers) that
               formed the basis of award, and the change disturbs the price/discount
               relationship of the Government to the customer (or category of
               customers) that was the basis of award.
     2) The Contractor shall offer the price reduction to the Government with the
        same effective date, and for the same time period, as extended to the
        commercial customer (or category of customers).




                                          D-1
d) There shall be no price reduction for sales—
   1) To commercial customers under firm, fixed-price definite quantity contracts
      with specified delivery in excess of the maximum order threshold specified in
      this contract;
   2) To Federal agencies;
   3) Made to State and local government entities when the order is placed under
      this contract (and the State and local government entity is the agreed upon
      customer or category of customer that is the basis of award); or
   4) Caused by an error in quotation or billing, provided adequate documentation
      is furnished by the Contractor to the Contracting Officer.
e) The Contractor may offer the Contracting Officer a voluntary Governmentwide
   price reduction at any time during the contract period.
f) The Contractor shall notify the Contracting Officer of any price reduction subject
   to this clause as soon as possible, but not later than 15 calendar days after its
   effective date.
g) The contract will be modified to reflect any price reduction which becomes
   applicable in accordance with this clause.
                                   (End of clause)




                                        D-2
REVIEW OF CONSISTENCY IN IMPLEMENTING
  POLICY ACROSS ACQUISITION CENTERS
   REPORT NUMBER A070118/Q/A/P09007

    Appendix E – Management Comments




                  E-1
 Federal Acquisition Service Comments on the OIG Draft Report: “Review of
     Consistency in Implementing Policy Across Acquisition Centers”
                                (A070118)


General Comments:

The scope and resultant recommendations of this audit strayed from a review of
policy implementation on a programmatic level to largely cost and pricing data
verification requirements and Acquisition Center specific pricing methodologies. As
with two other Multiple Award Schedule (MAS) program audits completed by the
Office of the Inspector General this year, “Review of Program Performance
Measurement for Procurement” and “Review of Multiple Award Schedule Program
Contract Workload Management”, the results did not provide input and
recommendations for the intended scopes and thereby fell short of providing the
Federal Acquisition Service (FAS) with valuable input for potential improvements.

The methodology does not address what types of contracts were reviewed, (i.e.
professional services, products), the dollar value of the contracts that were reviewed,
nor how the contracts for review were chosen. Without this information it is difficult
to put a context or to assess the validity of the findings and recommendations

The Background section states that, “The MAS Program is comprised of schedules
that only allow fixed prices, which can involve a higher degree of risk over the
contract.” In fact orders placed through schedules may done as firm fixed price, time
and material, or labor hour, as determined by the ordering activity.

The Background section also states, “The PR [Price Reduction] clause preserves
favorable pricing relationships by allowing the government to claim a price reduction
when a similar reduction occurs to the basis of award customer.” To clarify, the PR
clause maintaining the pricing relationship is triggered at the contract level. The
Federal Acquisition Regulation (FAR), specifically FAR Subpart 8.405, directs the
ordering activity to make a best value determination in placing an order. The
ordering activity may seek a price reduction at the order level and per FAR Subpart
8.405, must seek a price reduction above the maximum order threshold. The
ordering contracting officer’s (CO) best value determination based on the specifics of
the statement of work and/or requirements as well as the ability to seek discounts
are the Government’s best leverage for overall cost savings.

The negotiation strategies for MAS contracts are set forth in GSAM 538.270
which states, “The Government will seek to obtain the offeror’s best price (the
best price given to the most favored customer.) However, the Government
recognizes that the terms and conditions of commercial sales vary and there may
be legitimate reasons why the best price is not achieved.” The clause directs the




                                         E-2
CO to compare the terms and conditions of sale as well as other key factors
which may influence a determination of fair and reasonable pricing.

Given that a MAS contract is not a requirements contract, the CO makes a
determination of fair and reasonable pricing based on commercial practices, market
research and the terms and conditions of the contract. The ordering activities are
best able to leverage the Government’s buying power with a determination of best
value for a specific scope and need. They can further leverage aggregate volume
demand and further competition by establishing multiple Blanket Purchasing
Agreements. GSA provides other solutions based off of the MAS Program that
further leverage the Government’s aggregate buying power at the order level such
as Federal Strategic Sourcing Initiative, SmartBuy, and the Global Supply program.

The audit spends an undue length of time discussing a pricing tool utilized by one
Acquisition Center. It is noted in the audit report that based on meetings with the
auditors the Center made improvements to the tool.

We recognize that controls and consistency are critical, but note that in many
circumstances different tools may be necessary to suit different industries and
economies, and many of these tools are within the discretion of the CO in
order to arrive at a fair and reasonable pricing determination. Therefore, it is
very appropriate that in some instances COs and Acquisition Centers choose
a varying selection of indices and analysis tools.


Comments on Specific Recommendations

Recommendation No. 1:
Develop and implement policy and training for acquisition personnel including:
a) MFC pricing determination that employs methodologies commensurate with the
value and risk of the acquisition.
Partially agree. FAS agrees that further policy guidance and training on conducting
price analysis and implementing negotiation strategies and techniques are needed.
However, the CO is ultimately responsible for making a fair and reasonable pricing
determination. Furthermore, 15.402 Pricing policy (a) directs COs to not obtain
more information than is necessary to make a fair and reasonable pricing
determination, which often varies depending on the circumstances; therefore,
requests for additional information is often within the COs discretion. Moreover,
training for the MAS acquisition workforce should include, not only the award of MAS
base contracts, but the award of task orders and Blanket Purchase Agreements
under the contracts. The MAS Program Office (MAS PO) will begin developing
training content in fiscal year 2010.




                                         E-3
b) Use of cost analysis and clearly define cost or pricing data in relation to
information requested on the Commercial Sales Practices (CSP) form and for Office
of Inspector General pre-award audits.
Partially agree. FAS agrees that clear policy guidance and training on the use of
cost analysis in support the COs price analysis and determination of fair and
reasonable pricing are needed. However, 15.402 Pricing policy (a) directs COs to
not obtain more information than is necessary to make a fair and reasonable pricing
determination, which often varies depending on the circumstances; therefore,
requests for additional information is often within the COs discretion.
c) Proper use of GSAM clause GSAM 552.216-70 as the Economic Price
Adjustment (EPA) clause when they include Commercial Price Lists (CPLs) contain
more than base year rates.
FAS agrees. The MAS PO will issue guidance on this topic.
d) Schedule specific guidance to assist in determining wage rate escalation including
when a wage rate escalation is appropriate, specific index selection, time periods for
consideration, and application timeframe.
FAS agrees. As stated in the General Comments, at times it is appropriate to have a
varying set of tools and indices, but FAS agrees that the tools and indices should be
examined for merit and consistency.
e) Consideration of volume discounts during negotiation when offerors’ practices
include these discounts for their commercial customers, so as to maximize the
government’s purchasing power.
FAS agrees. The MAS PO is beginning to develop content for training to the
Acquisition Workforce and the consideration of volume discounts as recommended
can be included in that training for fiscal year 2010.
Recommendation No. 2:
Assess the viability of developing or establishing resources at the national level to
support COs in all the Centers by providing cost/price analyses and support,
particularly in the area of professional services.
Partially agree. The Business Portfolios are beginning to incorporate cost and pricing
specialists into the staffs. The MAS PO will work to foster consistency in the cost
and pricing strategies through quarterly meetings with the Acquisition Operations
Directors and policy guidance.
Recommendation No. 3:
Fully implement FSS Acquisition Letter FX-03-1, updated through
Supplement No. 3, dated February 18, 2005, ensuring these responsibilities




                                         E-4
are all clearly defined within the FAS organization. Additionally, consider
performing an assessment as to whether control functions of the legacy
Federal Supply Service (FSS) and Federal Technology Service (FTS)
organizations have been adequately transitioned to the new FAS organization
to enhance organizational performance and accountability.
FAS agrees. FAS has already begin drafting policy to address implementation of
the FSS Acquisition Letter FX-03-01 within the context of the FAS organization.
Recommendation No. 4:
Develop and implement controls to ensure the accuracy of contract
information published on GSA Advantage such as approved Special Item
Numbers (SINs), authorized pricing, etc. Determine if potential overcharges
discussed in finding occurred and if so, institute actions to recover funds.
Partially agree. The FAS CIO is heading up the Enterprise Acquisition Solutions
long-term project. As part of the project, a set of standardized formatted pricelists
are in development and will be implemented for MAS for both offers and contract
modifications. These formatted pricelists will guard against erroneous and
misleading uploads to GSA Advantage!
With respect to determining if potential overcharges occurred, and taking action
to recover any such overcharges, FAS will certainly pursue an appropriate
course of action if provided the specific contract number. FAS would also
emphasize that this finding occurred on one of over 17,000 MAS contracts.




                                          E-5
                 REVIEW OF CONSISTENCY IN IMPLEMENTING
                   POLICY ACROSS ACQUISITION CENTERS
                    REPORT NUMBER A070118/Q/A/P09007


              Appendix F – OIG Response to Management Comments

Management provided comments to the draft report under the headings, “General
Comments” and “Comments on Specific Recommendations”. This appendix
addresses the Management General Comments. Our responses to Management
Comments on Specific Recommendations are in the body of the report following
each recommendation.

Management General Comment:

The scope and resultant recommendations of this audit strayed from a review of
policy implementation on a programmatic level to largely cost and pricing data
verification requirements and Acquisition Center specific pricing methodologies. As
with two other Multiple Award Schedule (MAS) program audits completed by the
Office of the Inspector General this year, “Review of Program Performance
Measurement for Procurement” and “Review of Multiple Award Schedule Program
Contract Workload Management”, the results did not provide input and
recommendations for the intended scopes and thereby fell short of providing the
Federal Acquisition Service (FAS) with valuable input for potential improvements.

OIG Response:

Our review was concerned with consistency in implementing national procurement
policy and guidance across the Acquisition Centers as stated in the Objectives,
Scope, and Methodology section of this report. As policy implementation on a
programmatic level encompasses a broad spectrum of issues and concerns, we
consulted with FAS to obtain the priorities of the Acquisition Center Directors. After
learning that the top priorities of the Center Directors included pricing and economic
price adjustment, we narrowed our scope to include these areas. This scope was
communicated to all Centers during our Entrance Conferences as well as to
Management.

Management General Comment:

The methodology does not address what types of contracts were reviewed, (i.e.




                                         F-1
professional services, products), the dollar value of the contracts that were reviewed,
nor how the contracts for review were chosen. Without this information it is difficult
to put a context or to assess the validity of the findings and recommendations

OIG Response:

We have modified the Methodology section of the report to better indicate the types
of contracts reviewed. However, the narrative within the body of the report provides
the needed context, and the audit recommendations are structured in such as
manner as to both identify the basic operating principles involved and to allow
Management adequate flexibility to address them.

For example, Recommendation No. 1 states in part: “Develop and implement policy
and training for acquisition personnel including:

a) MFC pricing determination that employs methodologies commensurate with the
value and risk of the acquisition.”

In the case of this recommendation, the type of contract is not of overriding concern
as the GSAR requirement that the government seek to obtain the offeror’s best price
(the best price given to the MFC) is not contingent on contract type, dollar value, etc.
Even so, the consideration of contract value is embedded in this recommendation’s
statement that methodologies employed should be commensurate with the value
and risk of the acquisition.

Recommendation No. 2, “Assess the viability of developing or establishing resources
at the national level to support COs in all the Centers by providing cost/price
analyses and support, particularly in the area of professional services” clearly
identifies professional services contracts as an area of priority. However, as in the
case of Recommendation No. 1, the concept of providing cost/price analyses and
support at the national level to the COs transcends whether the contract is for
commodities, services, or a mixture of the two.

Recommendations No. 3, “Fully implement FSS Acquisition Letter FX-03-1” and No.
4, “Develop and Implement controls to ensure the accuracy of contract information
published on GSA Advantage”, are also not contingent on contract type. In the case
of Recommendation No. 3, the threshold value of the applicable contracts is
included this Acquisition Letter’s instructions.

Management General Comment:

The Background section states that, “The MAS Program is comprised of schedules
that only allow fixed prices, which can involve a higher degree of risk over the




                                         F-2
contract.” In fact orders placed through schedules may done as firm fixed price, time
and material, or labor hour, as determined by the ordering activity.

OIG Response:

The information Management quoted in this sentence was obtained from
Procurement Information Bulletin (PIB) 00-10 entitled “Fair and Reasonable Prices
and the MAS Pricing Policy” which states:

      Schedules only allow fixed prices. Fixed prices place a higher degree of
      risk on a contractor. In addition to issues of comparisons with cost based
      contracts, you should also consider the impact on the economic price
      adjustment provisions. The longer a contractor is obligated to hold their
      prices, the greater the cost risk.

While we agree that orders placed through schedules may awarded as firm fixed
price, time and material, or labor hour, as determined by the ordering activity, the
prices negotiated for the contract (i.e. a wage rate for a labor category or a
commodity unit price) are fixed and as such embody the risk discussed in this PIB.
The MAS Economic Price Adjustment (EPA) clause and the Price Reduction (PR)
clause serve to mitigate this risk and protect the government’s and contractors’
interests over the period of the MAS contracts.

Management General Comment:

The Background section also states, “The PR [Price Reduction] clause preserves
favorable pricing relationships by allowing the government to claim a price reduction
when a similar reduction occurs to the basis of award customer.” To clarify, the PR
clause maintaining the pricing relationship is triggered at the contract level. The
Federal Acquisition Regulation (FAR), specifically FAR Subpart 8.405, directs the
ordering activity to make a best value determination in placing an order. The
ordering activity may seek a price reduction at the order level and per FAR Subpart
8.405, must seek a price reduction above the maximum order threshold. The
ordering contracting officer’s (CO) best value determination based on the specifics of
the statement of work and/or requirements as well as the ability to seek discounts
are the Government’s best leverage for overall cost savings.

OIG Response:

We agree that the Price Reduction (PR) clause is triggered at the contract level. We
also agree that the FAR directs the ordering activity to make a best value
determination and seek discounts when placing an order; however, Management’s
best value and discount discussion included here is not relevant to the PR clause.

The PR clause states that before the award of a contract, the Contracting Officer
(CO) and the Offeror will agree upon the customer or category of customers which
will be the basis of award, and the Government’s price or discount relationship to


                                          F-3
this customer or category of customers. This relationship must be maintained
throughout the contract period. Simply put, if “Customer A” is identified as the basis-
of-award (BOA) customer and the government negotiates a 5% discount relationship
from the price the Offeror charges “Customer A”, any future price concessions the
Offeror makes to “Customer A” must also be passed on the government so that the
government’s price is always 5% less than “Customer A”.

Any change in the Contractor’s commercial pricing or discount arrangement with the
identified BOA customer which disturbs the negotiated relationship shall constitute a
price reduction. A price reduction shall apply to purchases under the MAS contract
if, after the date negotiations conclude, the Contractor revises the commercial
catalog, pricelist, schedule or other document upon which contract award was
predicated to reduce prices, grant more favorable discounts, etc. The Contractor is
required to offer the price reduction to the government with the same effective date,
and for the same time period, as extended to the identified BOA customer. The PR
clause provides an essential element of protection for negotiated government
pricing.

Management General Comment:

The negotiation strategies for MAS contracts are set forth in GSAM 538.270 which
states, “The Government will seek to obtain the offeror’s best price (the best price
given to the most favored customer.) However, the Government recognizes that the
terms and conditions of commercial sales vary and there may be legitimate reasons
why the best price is not achieved.” The clause directs the CO to compare the terms
and conditions of sale as well as other key factors which may influence a
determination of fair and reasonable pricing. Given that a MAS contract is not a
requirements contract, the CO makes a determination of fair and reasonable pricing
based on commercial practices, market research and the terms and conditions of the
contract.

OIG Response:

We concur. However, it should be noted that MFC pricing and fair and reasonable
pricing can be two very different amounts. Fair and reasonable pricing is the
required threshold while MFC pricing is the desired target.

Management General Comment:

The ordering activities are best able to leverage the Government’s buying power
with a determination of best value for a specific scope and need. They can further
leverage aggregate volume demand and further competition by establishing multiple
Blanket Purchasing Agreements. GSA provides other solutions based off of the




                                         F-4
MAS Program that further leverage the Government’s aggregate buying power at the
order level such as Federal Strategic Sourcing Initiative, SmartBuy, and the Global
Supply program.

OIG Response:

We agree that GSA provides a number of innovative solutions based on the MAS
program and that ordering activities may be able to leverage volume demand via
Blanket Purchasing Agreements (BPAs). However, the statement that ordering
agencies are best able to leverage the Government’s buying power with a
determination of best value for a specific scope and need underscores a
fundamental difference in the understanding of MAS program operating principles
between the OIG and FAS.

The MAS program is designed to be a government wide program. The leverage of
the government’s purchasing power should be utilized during contract negotiation to
obtain prices that all ordering activities can gain maximum benefit from, not only
those with sizeable requirements. Best value determinations should be made at the
order level by ordering activities by assessing the solutions offered by contractors
without the need for additional price negotiation unless orders exceed the Maximum
Order Threshold (MOT). The MOT negotiated in the MAS contract mandates the
seeking of additional discounts for these large volume orders.

PIB 00-10 entitled “Fair and Reasonable Prices and the MAS Pricing Policy” which
provides guidance to COs states:

      The fact that agencies can ask for additional discounts should not impact
      your tolerance for high prices. It is erroneous to allow prices higher based
      on the theory that agencies will negotiate better prices on individual
      orders. Equally false is the argument that the vendors, unknown to us, are
      actually offering better prices, therefore; a higher contract price is OK . . .
      If MAS contract prices can be routinely undercut, then FSS is not using
      the total volume of Government buying to achieve better prices for our
      customers. Taking advantage of the total volume of Government demand
      is the statutory justification for FSS and the schedules program.

Management General Comment:

The audit spends an undue length of time discussing a pricing tool utilized by one
Acquisition Center. It is noted in the audit report that based on meetings with the
auditors the Center made improvements to the tool.

OIG Response:

While the center has made improvements to the tool, the calculation used by the
pricing tool to compute “weighted price” is still not a valid methodology, a
requirement for price comparison under the FAR. Therefore, this tool is not adequate


                                            F-5
to establish negotiation objectives and make the FAR-required determinations that
prices are fair and reasonable.

Management General Comment:

We recognize that controls and consistency are critical, but note that in many
circumstances different tools may be necessary to suit different industries and
economies, and many of these tools are within the discretion of the CO in order to
arrive at a fair and reasonable pricing determination. Therefore, it is very
appropriate that in some instances COs and Acquisition Centers choose a varying
selection of indices and analysis tools.

OIG Response:

We agree that different tools may be necessary and that many of these tools are
within the discretion of the CO. However, we believe that the audit
recommendations are structured in such as manner as to allow Management
adequate flexibility to address them as business operations dictate.




                                        F-6
                 REVIEW OF CONSISTENCY IN IMPLEMENTING
                   POLICY ACROSS ACQUISITION CENTERS
                    REPORT NUMBER A070118/Q/A/P09007

                          Appendix G – Report Distribution

                                                                   Copies

Commissioner, Federal Acquisition Service (Q)                         3

Internal Control and Audit Division (BEI)                             1

Assistant Inspector General for Auditing (JA & JAO)                   2

Assistant Inspector General for Investigations (JI)                   1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)      1




                                         G-1
